Case: 18-14324

Date Filed: 08/26/2019

Page: lot 11
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-14324
Non-Argument Calendar

D.C. Docket No. 2:17-cv-00693-ECM-WC

JEANETTA SPRINGER,
JACOB SPRINGER,
Plaintiffs-Appellants,
versus
WELLS FARGO BANK, N.A.,
as successor of Wachovia Bank, N.A.
formerly known as Southtrust Bank, N.A.,
SIROTE & PERMUTT, P.C.,
VERNON BARNETT,
Commissioner,
Defendants-Appellees.

Appeal from the United States District Court
for the Middle District of Alabama
(August 26, 2019)

Case: 18-14324

Date Filed: 08/26/2019

Page: 2 of 11

Before WILLIAM PRYOR, GRANT, and ANDERSON, Circuit Judges.
PER CURIAM:
Jeanetta and Jacob Springer (“the Springers”), proceeding pro se, appeal the
district court’s orders denying their motion to recuse the assigned magistrate judge
and dismissing with prejudice their complaint raising construed claims for
wrongful foreclosure and due process violations against Wells Fargo, N.A., Sirote
& Permutt, P.C. (“S&P”), and Vernon Barnett, the commissioner of the Alabama
Department of Revenue (collectively “defendants”). They argue that the assigned
magistrate judge abused his discretion in refusing to recuse himself because he had
previously dismissed two of Mr. Springer’s cases and was aware of a judicial
inquiry that Mr. Springer filed against him, showing that he had personal bias or
prejudice toward them. They further argue that the district court erred by
dismissing their complaint for lack of subject matter jurisdiction because the
Rooker-Feldman doctrine1 and res judicata did not apply to their case. They also
appeal the district court’s decisions to take judicial notice of certain documents and
to dismiss their complaint with prejudice without first allowing them an
opportunity to amend the complaint.

1 The Rooker-Feldman doctrine derives from Rooker v. Fidelity Trust Co., 263 U.S. 413
(1923), and D.C. Court ofAppeals v. Feldman, 460 U.S. 462 (1983).
2

Case: 18-14324

Date Filed: 08/26/2019

Page: 3 of 11

I.

We review a district court’s denial of a motion to recuse for abuse of
discretion. United States v. Bailey, 175 F.3d 966, 968 (11th Cir. 1999). Under the
abuse-of-discretion standard, we affirm the refusal to recuse unless we “conclude
that the impropriety is clear and one which would be recognized by all objective,
reasonable persons.” Id. A federal judge or magistrate judge must disqualify
himself if his “impartiality might reasonably be questioned,” or where he “has a
personal bias or prejudice concerning a party, or personal knowledge of disputed
. evidentiary facts concerning the proceeding.” 28 U.S.C. § 455(a), (b)(1). The
standard for recusal is an objective one. McWhorter v. City ofBirmingham, 906
F.2d 674, 678 (11th Cir. 1990). “The test is whether an objective, disinterested,
lay observer fully informed of the facts underlying the grounds on which recusal
)

was sought would entertain a significant doubt about the judge’s impartiality.” Id.
(quoting Parker v. Conners Steel Co., 855 F.2d 1510, 1524 (11th Cir. 1988)).
Ordinarily, a judge’s rulings in the same or a related matter may not serve as
the basis for a motion to recuse. Id. The judge’s bias must be personal and
extrajudicial; it must derive from something other than that which the judge
learned by participating in the case. Id. Further, a party alleging that a judge has a
personal bias or prejudice toward him must generally file an affidavit that states
“the facts and the reasons for the belief that bias or prejudice exists.” See 28
3

Case: 18-14324

Date Filed: 08/26/2019

Page: 4 of 11

U.S.C. § 144. Arguments not raised in the district court are waived. Bryant v.
Jones, 575 F.3d 1281, 1296 (11th Cir. 2009).
Here, as an initial matter, the Springers did not offer any facts in support of
their motion below, and to the extent they argue on appeal that the magistrate judge
was biased against them because of the judicial inquiry or the dismissal of two of
Mr. Springer’s prior cases, that argument is waived because it was not raised
before the district court. In any event, the assigned magistrate judge did not abuse
his discretion in denying the motion to recuse because nothing in the record
suggested that he had personal bias or prejudice toward the Springers, nor any
personal knowledge of disputed evidentiary facts in the proceedings. Although he
recommended dismissal of two of Mr. Springer’s prior cases and Mr. Springer
i

filed a judicial inquiry against him, this was not enough to raise a substantial doubt
about his impartiality. Further, his dismissal of two of Mr. Springer’s cases and
the judicial inquiry arose from his judicial duties, and not an extrajudicial source.
Accordingly, we affirm as to this issue.

n.
We review “dismissals for lack of subject matter jurisdiction de novo''
Nicholson v. Shafe, 558 F.3d 1266, 1270 (11th Cir. 2009). We also review de novo
the district court’s application of the Rooker-Feldman doctrine and res judicata.
Lozman, 713 F.3d at 1069-70. “Pro se pleadings are held to a less stringent
4

Case: 18-14324

Date Filed: 08/26/2019

Page: 5 of 11

standard than pleadings drafted by attorneys and will, therefore, be liberally
construed.” Tannenbaum v. United States, 148 F.3d 1262, 1263 (11th Cir. 1998).
Issues not briefed on appeal are deemed abandoned. Timson v. Sampson, 518 F.3d
870, 874 (11th Cir. 2008).
Among the federal courts, only the Supreme Court may “exercise appellate
authority ‘to reverse or modify’ a state-court judgment.” Exxon Mobil Corp. v.
Saudi Basic Indus. Corp., 544 U.S. 280, 284 (2005). Accordingly, under the
Rooker-Feldman doctrine, federal district courts lack jurisdiction to review the
final judgment of a state court. Lozman v. City ofRiviera Beach, Fla., 713 F.3d
1066, 1072 (11th Cir. 2013). We have said that the Rooker-Feldman doctrine is
confined to “cases brought by state-court losers complaining of injuries caused by
state-court judgments rendered before the district court proceedings commenced
and inviting district court review and rejection of those judgments.” Id. (citing
Exxon, 544 U.S. at 284). “The [.Rooker-Feldman] doctrine applies both to federal
claims raised in the state court and to those ‘inextricably intertwined’ with the state
court’s judgment.” Casale v. Tillman, 558 F.3d 1258, 1260 (11th Cir. 2009). The
doctrine does not apply if a party did not have a “reasonable opportunity to raise
his federal claim in state proceedings.” Id. (citing Powell v. Powell, 80 F.3d 464,
467 (11th Cir. 1996)). A claim brought in federal court is inextricably intertwined
with a state court judgment if it would “effectively nullify” the state court
5

Case: 18-14324

Date Filed: 08/26/2019

Page: 6 of 11

judgment or if it “succeeds only to the extent that the state court wrongly decided
the issues.” Id.
When we are asked to give res judicata effect to a state court judgment, we
must apply the res judicata principles of the state whose decision is set up as a bar
to further litigation. Green v. Jefferson Cty. Comm’n, 563 F.3d 1243, 1252 (11th
Cir. 2009). Under Alabama law, “the essential elements of res judicata are (1) a
prior judgment on the merits, (2) rendered by a court of competent jurisdiction,
(3) with substantial identity of the parties, and (4) with the same cause of action
presented in both actions.” Id. (applying Alabama res judicata principles). If all
four elements are met, any claim that was, or could have been, adjudicated in the
prior action is barred from future litigation. Id.
The party identity criterion “does not require complete identity, but only that
the party against whom res judicata is asserted was either a party or in privity with
a party to the prior action or that the non-party’s interests were adequately
represented by a party in the prior suit, and the relationship between the party and
non-party is not so attenuated as to violate due process.” Dairyland Ins. Co. v.
Jackson, 566 So. 2d 723,725-26 (Ala. 1990). Identity of the parties concerns two
sets of persons. N.A.A.C.P. v. Hunt, 891 F.2d 1555, 1560 (11th Cir. 1990). The
first includes those persons who were actual parties to the original action. Id. The
second is comprised of those persons who are or were in privity with the parties to
6

Case: 18-14324

Date Filed: 08/26/2019

Page: 7 of 11

the original suit. Id. Privity is defined as “a relationship between one who is a
party of record and a nonparty that is sufficiently close so a judgment for or against
the party should bind or protect the nonparty.” Id. Privity exists where the
nonparty’s interests were represented adequately by the party in the original suit.
Id. at 1560-61. Further, regardless of the exact legal theory advanced in the prior
case, claims are “identical” for purposes of res judicata if they arise out of the
same nucleus of operative facts and if the same evidence is applicable in both
actions. Green, 563 F.3d at 1253.
Moreover, a party failing to object to a magistrate judge’s findings or
recommendations contained in a report and recommendation (“R&R) waives the
right to challenge on appeal the district court’s order based on unobjected-to
factual and legal conclusions if the party was informed of the time period for
objecting and the consequences on appeal for failing to object. 11th Cir. R. 3-1. In
the absence of a proper objection, however, we may review on appeal for plain
error if necessary in the interests of justice. Id.
As an initial matter, the Springers failed to object to the magistrate judge’s
legal conclusions that their claims were barred by the Rookej’-Feldman doctrine and
res judicata and have, thus, waived any challenge to those conclusions on appeal.
Further, to the extent that they raised due process claims against Barnett below for
the improper garnishment of Mr. Springer’s property after the foreclosure
7

Case: 18-14324

Date Filed: 08/26/2019

Page: 8 of 11

proceedings had concluded or against Wells Fargo for the manner in which the
foreclosure sale was conducted, those arguments are abandoned and/or waived
because they failed to raise them on appeal or object to the R&R on those bases.
Notwithstanding the waiver, the district court was correct to conclude that the
Springers’ claims against Wells Fargo were barred by either the Rooker-Feldman
doctrine or res judicata. And the Springers’ claims against S&P were barred by res
judicata. Although S&P was not a party to the state court proceedings, it was in
privity with Wells Fargo in that it served as counsel for Wells Fargo in the state court
proceedings. Accordingly, we affirm as to this issue.

m.
We analyze the district court’s decision to take judicial notice of certain
facts under an abuse of discretion standard. See Lodge v. Kondaur Capital Corp.,
750 F.3d 1263, 1273 (11th Cir. 2014). In general, a district court may not look
beyond the pleadings on Rule 12(b)(6) review. U.S. ex. rel. Osheroff v. Humana,
Inc., 776 F.3d 805, 811 (11th Cir. 2015). A district court may only consider an
extrinsic document if it is (1) central to the plaintiffs claim, and (2) its authenticity
is not challenged. Id. Where a district court considers a motion to dismiss on
jurisdictional grounds, however, it may consider matters “beyond the pleadings in
order to determine whether it lacked subject matter jurisdiction.” Goodman v.
Sipos, 259 F.3d 1327,1331 n.6 (11th Cir. 2001). In addition, a district court may
8

Case: 18-14324

Date Filed: 08/26/2019

Page: 9 of 11

judicially notice a fact that “is not subject to reasonable dispute because it: (1) is
generally known within the trial court’s territorial jurisdiction; or (2) can be
accurately and readily determined from sources whose accuracy cannot reasonably
be questioned.” Fed. R. Evid. 201(b). A court may consider judicially noticed
documents without converting a motion to dismiss to a motion for summary
judgment. See Osheroff, 776 F.3d at 811; Bryant v. Avado Brands, Inc., 187 F.3d
1271, 1278 (11th Cir. 1999).
Here, as an initial matter, the Springers’ argument that the magistrate judge
improperly took judicial notice of the mortgage, foreclosure, and tax liability
documents is waived because they failed to object to the R&R on this basis. In
any event, the magistrate judge did not abuse his discretion by taking judicial
notice of these documents because they were either filed in the state court
foreclosure proceedings and are, thus, public records, or provided to the court by
the Springers.
Finally, the district court was permitted to look beyond the pleadings in
determining its subject matter jurisdiction without converting the motion to dismiss
into a motion for summary judgment. Therefore, the Springers’ argument that the
court failed to provide them notice that it was converting the motion to dismiss into
a motion for summary judgment is meritless. Accordingly, we affirm as to this
issue.
9

Case: 18-14324

Date Filed: 08/26/2019

Page: 10 of 11

IV.
We review a district court’s decision to grant or deny leave to amend for
abuse of discretion. Forbus v. Sears Roebuck & Co., 30 F.3d 1402, 1404 (11th
Cir. 1994). “A district court’s discretion to deny leave to amend a complaint is
severely restricted by Fed. R. Civ. P. 15, which stresses that courts should freely
give leave to amend when justice so requires.” Woldeab v. Dekalb Cty. Bd. of
Educ., 885 F.3d 1289, 1291 (11th Cir. 2018) (quotation marks omitted). We have
a well-established rule that, where a more carefully drafted pro se complaint might
state a claim, the “plaintiff must be given at least one chance to amend the
complaint before the district court dismisses the action with prejudice.” Bank v.
Pitt, 928 F.2d 1108, 1112 (11th Cir. 1991), overruled in part by Wagner v.
Daewoo Heavy Indus. Am. Corp., 314 F.3d 541 (11th Cir. 2002) {en banc)
(overruling Bank as to counseled plaintiffs, but deciding “nothing about a party
proceeding pro se”). This rule applies even when the plaintiff does not seek leave
to amend until after the district court rules. Woldeab, 885 F.3d at 1291. But, a
district court is not required to grant leave to amend where the plaintiff expresses a
desire not to amend or “a more carefully drafted complaint could not state a
claim.” Id. (quoting Bank, 928 F.2d at 1112). We do not address arguments raised
for the first time in a pro se litigant’s reply brief. Timson, 518 F.3d at 874.

10

Case: 18-14324

Date Filed: 08/26/2019

Page: 11 of 11

Here, as an initial matter, the Springers waived any potential claims that they
wish to raise in an amended complaint by failing to raise them in their objections to
the magistrate judge’s R&R. Further, they abandoned three of their eight
proposed claims by raising them for the first time in their reply brief.
Notwithstanding the waiver, the district court did not abuse its discretion by
failing to give the Springers an opportunity to amend their complaint before it
dismissed the complaint with prejudice. We do not see any meritorious claim that
the Springers could raise in a more carefully drafted complaint and, thus, allowing
the Springers to amend their complaint in these circumstances would be futile. All
their potential claims are barred by the Rooker-Feldman doctrine or res judicata.
At the heart of their case, the Springers seek district court review and rejection of a
valid state court foreclosure judgment, and we have no jurisdiction to review those
types of claims.
Accordingly, the district court properly dismissed all of the Springers’
claims against all of the defendants, and the judgment of the district court is
AFFIRMED.

11

■ Case: 2:17-cv-00693-ECM-WC

Document #: 30-1

Date Filed: 09/13/2018

Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
JEANETTA SPRINGER and
JACOB SPRINGER,

)
)
)

Plaintiffs,

)
)

v.

)

Case No. 2:17-cv-693-ECM-WC

)

WELLS FARGO BANK, N.A.,
etal.,
Defendants.

)
)
)
)

FINAL JUDGMENT
In accordance with the order entered on this date adopting the Report and
Recommendation of the Magistrate Judge, it is the ORDER, JUDGMENT and
DECREE of the Court that this case is DISMISSED with prejudice.
The Clerk is DIRECTED to enter this document on the civil docket as a Final
Judgment pursuant to Rule 58 of the Federal Rules of Civil Procedure.
Done this 13th day of September, 2018.
/s/Emilv C. Marks
EMILY C. MARKS
UNITED STATES DISTRICT JUDGE

Case: 18-14324

Date Filed: 01/23/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 18-14324-CC
JEANETTA SPRINGER,
JACOB SPRINGER,
Plaintiffs - Appellants,
versus
WELLS FARGO BANK, N.A.,
as successor of Wachovia Bank, N.A.
formerly known as Southtrust Bank, N.A.,
SIROTE & PERMUTT, P.C.,
VERNON BARNETT,
Commissioner,
Defendants - Appellees.
Appeal from the United States District Court
for the Middle District of Alabama
BEFORE: WILLIAM PRYOR, GRANT and ANDERSON, Circuit Judges.
PER CURIAM:
The Petition for Panel Reheating filed by Appellants Jeanetta and Jacob Springer is DENIED.

ORD-41

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscouits.gov

David J. Smith
Clerk of Court

January 23,2020
MEMORANDUM TO COUNSEL OR PARTIES
Appeal Number: 18-14324-CC
Case Style: Jeanetta Springer, et al v. Wells Fargo Bank, N.A., et al
District Court Docket No: 2:17-cv-00693-ECM-WC
The enclosed order has been entered on petition(s) for rehearing.
See Rule 41, Federal Rules of Appellate Procedure, and Eleventh Circuit Rule 41-1 for
information regarding issuance and stay of mandate.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Carol R. Lewis, CC/lt
Phone #: (404) 335-6179
REHG-1 Ltr Order Petition Rehearing

